AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Operations




  Audit Report

 Major Clean-Up Projects at the Idaho
 National Engineering and
 Environmental Laboratory




 DOE/IG-0649                                May 2004
well after its scheduled July 1, 2003, completion date – in fact, it is currently estimated to be
sometime in 2005 or 2006. The Department also did not meet its original completion goal for
the Three Mile Island Project and later reduced the scope of the project to compensate for
schedule slippages.

Although events outside of the Department's control contributed to these schedule delays,
enhancements to contract and project management practices could improve the way the
Department and its contractors react to these events and ultimately the projects' outcomes.
Because of the identified delays, the Department will be forced to deal with additional costs and
long-term operational impacts to other environmental management projects. We recommended
that the Department improve contract oversight and project management controls over key
projects. This includes clearly defining project expectations and implementing effective
performance accountability.

The Office of Inspector General has issued numerous reports on difficulties encountered by the
Department with project management and contract administration. As such, both of these areas
have been identified in our Special Report on Management Challenges at the Department of
Energy (DOE/IG-0626, November 2003), as among the most serious challenges facing the
Department of Energy.

MANAGEMENT REACTION

The Assistant Secretary for Environmental Management agreed with the report's conclusions and
stated that, in recognition of problems across the complex, the Office of Environmental
Management has taken a number of significant steps to improve project management.
Additionally, at the Idaho Operations Office, actions have been initiated to improve project rigor
and discipline. Management’s comments are included in Appendix 3.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Director, Office of Nuclear Energy, Science and Technology
    Manager, Idaho Operations Office
REPORT ON MAJOR CLEAN-UP PROJECTS AT THE IDAHO
NATIONAL ENGINEERING AND ENVIRONMENTAL LABORATORY



TABLE OF
CONTENTS


  Completion of Clean-Up Activities

  Details of Finding                                1

  Recommendations and Comments                      6


  APPENDICES

  1. Objective, Scope, and Methodology              7

  2. Prior Audit Reports                            9

  3. Management Comments                            10
COMPLETION OF CLEAN-UP ACTIVITIES

Performance      The Department of Energy (Department) experienced
Expectations     difficulty in meeting its initial performance expectations for at
                 least three of its major clean-up projects at the Idaho National
                 Engineering and Environmental Laboratory (INEEL).
                 Specifically, these three projects did not complete the initially
                 prescribed scope of work in accordance with their anticipated
                 schedule. These projects included the Advanced Mixed Waste
                 Treatment Project, the Dry Storage Project for Spent Nuclear Fuel,
                 and the Three Mile Island Project.

                             Advanced Mixed Waste Treatment Project

                 As of March 31, 2003, the Department had not fully commenced
                 operations of the Advanced Mixed Waste Treatment Project
                 (AMWTP). Central to the project was a newly constructed facility
                 designed to characterize, treat, and certify transuranic mixed waste
                 for disposal at the Department's Waste Isolation Pilot Plant
                 (WIPP). The facility was necessary to permit the removal of
                 transuranic waste from the State of Idaho by 2018. The Idaho
                 Operations Office (Idaho) contracted with BNFL, Inc. (BNFL) in
                 1996 to complete the project. According to BNFL's contract and
                 the Department's Accelerating Cleanup: Paths to Closure plan, the
                 facility was to be operational - capable of retrieving,
                 characterizing, treating, and certifying waste for shipment - by
                 March 31, 2003.
                 However, at that date, the AMWTP was only able to retrieve the
                 waste from the earthen berms and load pre-certified waste onto
                 trucks at its shipping dock. The facility's processes to characterize,
                 treat, and certify the waste were not operational. Some of the
                 equipment in the characterization line did not function properly
                 and the characterization certification reviews were not performed
                 until August 2003. The treatment capabilities were not expected to
                 be ready for review until July 2004. In commenting on the draft
                 report, management stated that the facility had to be operational
                 before it could be certified to ship waste to WIPP. While we do
                 not dispute that assertion, original expectations were that
                 certifications would occur prior to the expected March 31, 2003,
                 operation date.




Page 1                                                            Details of Finding
                                 Dry Storage Project for Spent Nuclear Fuel


                     The Department did not successfully commence loading spent fuel
                     into a newly constructed dry storage facility by July 1, 2003. The
                     Dry Storage Project included the construction and operation of a
                     facility to treat and store 45 metric tons of spent nuclear fuel to
                     support the Department's effort to remove the INEEL's stored fuel
                     from the State by 2035. According to the Department's
                     Accelerating Cleanup: Paths to Closure plan and other project
                     documents, the Department intended the new facility to be
                     operational by July 1, 2003. As of December 2003, construction
                     on the dry storage facility had not begun. Construction is not to
                     commence until sometime in 2005 or 2006.

                                          Three Mile Island Project

                     The Department did not achieve its original plans to complete
                     construction of the Three Mile Island dry storage facility by
                     December 31, 1998. The project was designed to remove spent
                     fuel from an old storage facility and place it into 30 horizontal
                     modules for interim storage until the fuel could be removed from
                     the State. The project was to have all 30 storage modules in place,
                     along with the necessary storage canisters, by December 31, 1998.
                     However, as of that date only three modules were on site and only
                     one canister was available.

                     Further, Idaho removed scope from this project in order to meet a
                     June 1, 2001, schedule goal. Originally, the project included the
                     transfer of spent fuel from the Three Mile Island reactor, the Loss
                     of Fluid Test reactor, and miscellaneous commercial reactors.
                     However, to accomplish loading of the fuel by the scheduled date
                     of June 1, 2001, the Idaho Operations Office removed all but the
                     Three Mile Island fuel from the project's scope of work.

Contract Oversight   Each of these projects experienced some delay due to unforeseen
and Project          circumstances beyond the Department's control. Specifically,
Management           during the permitting phase of the AMWTP, a lawsuit from
                     environmental groups delayed construction of the facility. The
                     other projects were affected by protests made by losing bidders and
                     by bankruptcy proceedings of a key subcontractor. Also, in
                     commenting on the report, management pointed out that the clean
                     up environment is always changing which creates challenges in
                     managing Departmental expectations. For example, the AMWTP
                     contract was awarded prior to WIPP beginning operations and



Page 2                                                                Details of Finding
         setting firm certification requirements. Despite these unavoidable
         circumstances, enhancements to contract and project management
         practices could improve the way the Department and its
         contractors react to these events and ultimately the project
         outcomes.

                                  Contract Oversight

         In our judgment, more active oversight of contractors could
         enhance schedule performance. The contracts to construct the
         AMWTP facility and the dry storage facility were issued as
         fixed-price privatization contracts. When issued, the Department
         favored privatization contracts because the contractor would be
         required to design and construct the facilities with no payment
         until the facilities were treating or packaging waste. Thus, Idaho
         was not as involved as it could have been when managing the
         contracts and enforcing the limited accountability features. For
         example, the contract and performance management plan required
         BNFL to make regular cost and schedule variance reports on the
         treatment project. While management indicated that BNFL
         continues to provide cost and schedule variance reports to the
         Department’s contracting officer, a recent review by the Office of
         Environmental Management noted that the contractor stopped
         providing these reports when the variances began to grow and
         Idaho did not enforce the provisions requiring report submission.
         It should be noted that since this review, the Manager at Idaho has
         taken a number of steps to improve accountability over this
         project.

         Also, incorporating performance accountability features in the
         contracts, such as penalties for not meeting established milestones,
         could enhance contractor performance. We noted that the
         Department's contract with BNFL did not include any penalties if
         the treatment facility did not become operational by the target date.
         Also, performance measures were inadequate to ensure that the dry
         storage facility was operational in time to support the Department's
         goals. Specifically, the Dry Storage Project contract did not
         include incentives or penalties tied to the July 1, 2003, milestone to
         commence loading of spent nuclear fuel. Instead, the original
         contract included a clause that invoked incentives and penalties
         tied to completion of the facility by December 31, 2004, or 18
         months after the planned date. When it became evident the
         contractor would not meet this contract deadline, the contract was
         subsequently modified and the performance date delayed until
         December 31, 2005.



Page 3                                                     Details of Finding
                    Regarding the Three Mile Island project, Department officials told
                    us that many of the delays in meeting milestones were caused by
                    inadequate performance by a subcontractor at the INEEL.
                    However, we noted the same omission of accountability features,
                    such as penalties for missed deadlines, with this fixed-price
                    subcontract.

                                             Project Definition

                    We found that project plans could be improved by more clearly
                    defining expectations, end products, and performance metrics. For
                    the three major projects we reviewed, specific definitions were
                    lacking for many of the planned activities. For example
                    "commencement of operation" was never specifically defined for
                    the AMWTP. In many cases the original goals for the projects that
                    we measured against during our review could only be
                    reconstructed by drawing from a variety of sources. Clearly
                    defined expectations are essential to an effective change control
                    process, which is a key project management tool. Improved
                    project management practices could enhance project outcomes.

Long-Term Effects   By not meeting its original expectations on these projects, the
                    Department prematurely reimbursed the contractor on work
                    performance, will be faced with additional costs, and will
                    experience long-term operational impacts to other environmental
                    management projects.

                    For the AMWTP, cost reimbursements were made before the
                    contractor demonstrated facility capabilities and the Department's
                    shipping schedule was negatively impacted. Specifically, Idaho
                    transferred 197 cubic meters of pre-certified waste from its
                    management and operating contractor to BNFL for shipment to
                    WIPP. Even though the contractor had not retrieved,
                    characterized, or packaged this waste, Idaho agreed to pay BNFL
                    $5 million to "process" this waste, $4.4 million of which was to
                    recover a portion of construction costs. Under the contract,
                    recovery of these capital costs was not to take place until the
                    facility was able to process waste. In commenting to the draft
                    report, management stated that this had no effect on the life-cycle
                    cost of the project – a fact with which we agree. In our opinion,
                    however, prematurely reimbursing the contractor reduces the
                    principal incentive for BNFL to begin full operations – that is, the
                    contract is designed to not pay BNFL until the AMWTP is fully
                    operational. Further, the Department's national transuranic waste
                    shipping schedule was negatively affected. Because the AMWTP


Page 4                                                               Details of Finding
         facility was not fully operational, the repository's schedule of
         planned shipments from the INEEL was decreased by over 800
         shipments. To its credit, the Department was able to minimize this
         loss by increasing shipments from other sites, such as Savannah
         River, Rocky Flats, and Hanford. However, about 590 planned
         shipments were not replaced. At the time of our review, the
         Department had incurred over $1.8 million in stopped work costs
         for its transportation contractor because of this shortfall.

         Because the Dry Storage Project is now projected to begin
         operations more than two years after originally expected, the
         Department will not have this facility available as early as planned
         to store fuels emptied from the spent fuel pools. Based on data
         contained in the justification for this project, the Department may
         be foregoing a potential cost savings of as much as $47 million due
         to this two year delay. This potential savings is based on the
         Department’s estimate that operating the spent fuel pools and other
         aging spent fuel facilities costs over $23 million per year. In
         responding to our draft report, management stated that the
         estimated savings was not factual since operation of the Dry
         Storage Project is not necessary to empty the aging spent fuel
         pools and some pools have already been emptied. However, even
         though some have been emptied, the largest pool has yet to be
         emptied, and according to existing plans, the Dry Storage Project is
         necessary to complete the Department’s goal of emptying all of the
         pools.

         By not meeting the original objectives for the Three Mile Island
         project, a significant amount of work was postponed to future
         years. For instance, the Loss of Fluid Test Reactor spent fuel and
         other commercial spent fuel transfers still have not occurred. In
         addition, the operating costs for the Three Mile Island project
         increased by approximately $6 million causing the Idaho
         Operations Office to shift work scope and reduce funding from
         other projects on Idaho's Environmental Management Integrated
         Priorities List.




Page 5                                                   Details of Finding
RECOMMENDATIONS    To improve contract oversight and project management and to
                   minimize remaining project costs, we recommend that the
                   Manager, Idaho Operations Office, ensure that:

                         1.     Contracts include performance accountability
                                features, including meaningful penalties where
                                appropriate, to accomplish the Department's project
                                requirements;

                         2.     Contract performance requirements are monitored and
                                enforced in a timely manner;

                         3.     Detailed project plans are prepared that clearly define
                                the scope of work necessary to meet major project
                                milestones, and the contract's scope of work is clearly
                                tied to the major project activities; and,

                         4.     The formal change control processes over project
                                plans and contractor requirements include all changes
                                in work scope, detailing how these changes affect
                                meeting project milestones.

MANAGEMENT         The Assistant Secretary for Environmental Management (EM)
REACTION           concurred with the recommendations and stated that the
                   Department is taking corrective actions to improve project
                   management. These actions include incorporating accountability
                   features into contracts, aligning initiatives to life-cycle baselines,
                   and improving management over contractors' activities. The
                   Assistant Secretary also indicated that one of the major goals of
                   her office was to improve project management for all projects.
                   Additionally, at the Idaho Operations Office, actions have been
                   initiated to improve project rigor and discipline, and to align with
                   EM initiatives that apply DOE Manual 413.3 project management
                   principles to life-cycle baselines. Other management comments
                   unrelated to the recommendations have been addressed within the
                   report, as appropriate. Management's written comments can be
                   found in Appendix 3 of this report.

AUDITOR COMMENTS   We consider management's comments and planned corrective
                   actions to be responsive to the report's recommendations.




Page 6                                           Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Idaho Operations Office achieved its
              original performance expectations for major clean-up projects at
              the Idaho National Engineering and Environmental Laboratory.

SCOPE         The audit was performed from July 2, 2003, to December 12,
              2003, at the Idaho Operations Office and the INEEL, near Idaho
              Falls, Idaho. The audit reviewed selected projects that were related
              to the Idaho Settlement Agreement milestones from its inception in
              October 1995 through December 2003.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Obtained and reviewed planning documents for the
                     activities audited;

                 •   Researched Federal and Departmental regulations;

                 •   Reviewed findings from prior audit reports regarding the
                     Settlement Agreement and project management;

                 •   Reviewed the BNFL contract with the Department for the
                     design, construction, and operation of the Advanced Mixed
                     Waste Treatment Project;

                 •   Reviewed the Foster Wheeler contract with the Department
                     for the design, construction, and operation of the Spent
                     Nuclear Fuel Dry Storage Project;

                 •   Reviewed project data from the Three Mile Island Line-
                     Item Construction Project;

                 •   Assessed internal controls and performance measures
                     established under the Government Performance and Results
                     Act of 1993; and,

                 •   Interviewed key personnel in the Idaho Operations Office.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Specifically, we tested controls with respect to the Department's
              planning process for waste management activities. Because our
              review was limited, it would not necessarily have disclosed all



Page 7                                                Scope and Methodology
         internal control deficiencies that may have existed at the time of
         our audit. We did not rely on computer-generated data to
         accomplish our audit objective. We held an exit conference with
         the Deputy Manager of the Idaho Operations Office on
         April 22, 2004.




Page 8                                         Scope and Methodology
Appendix 2


                                 PRIOR AUDIT REPORTS


  •   Remote Treatment Facility (DOE/IG-0573, November 2002), concluded that the
      conceptual design and schedule for building the facility did not provide the capability to
      treat all the remote handled solid waste at the INEEL. Since all mission needs were not
      incorporated into planning the facility, the Department may need to build a second
      treatment facility and could be vulnerable to fines and enforcement actions.

  •   Idaho Settlement Agreement Activities (DOE/IG-0571, October 2002), concluded that the
      transfer of Three Mile Island spent nuclear fuel to dry storage exceeded cost expectations
      by as much as $18 million and that the shipment of 3,100 cubic meters of transuranic
      waste out of Idaho potentially could exceed cost expectations by as much as
      $150 million. In addition to events outside the Department's control, project management
      control weaknesses contributed to cost overruns.

  •   Remediation and Closure of the Ashtabula Environmental Management Project
      (DOE/IG-0541, January 2002), concluded that clean-up efforts on the RMI Extrusion
      Plant and surrounding grounds would not be completed until nine years after the
      scheduled completion date and project costs could increase by $60 million. In managing
      this project, the Department did not hold the contractor accountable for progress or
      require compliance with the contract. In addition, the contractor did not follow its
      decommissioning plan.




Page 9                                                                     Prior Audit Reports
Appendix 3




Page 10      Management Comments
Appendix 3




Page 11      Management Comments
Appendix 3




Page 12      Management Comments
                                                                    IG Report No. DOE/IG-0649

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
